              OFFICE OF
             INSPECTOR GENERAL
              U.S.DEPARTMENT OFTHE INTERIOR

                                                                                        August 8, 2012

Memorandum

To:           Eric Eisenstein
              Division Chief, Internal Control and Audit Follow-up
              Office of Financial Management

              Gregory Gould, Director, Office ofNatural Resources Revenue
              Office of Policy, M ge        and Budget

From:         Charles H


Subject:      Verification Review of Recommendations from our May 25, 2010, "Final Audit
              Report: Minerals Management Service: Royalty-In-Kind Program's Oil Volume
              Verification Process (Report No. C-IN-MMS-0007-2008)"
              Report No. CR-VS-ONRR-0005-2012

       The Office of Inspector General (OIG) has completed a verification review of the four
recommendations presented in the subject audit report. The objective of the review was to
determine whether the Office of Natural Resources Revenue (ONRR) and the Bureau of Ocean
Energy Management, Regulation and Enforcement (BOEMRE) implemented the
recommendations. Based on our verification, we concluded that all four recommendations are
resolved and implemented.

Background

        Our May 25, 2010 report, "Minerals Management Service: Royalty-In-Kind Program's
Oil Volume Verification Process" (Report No. C-IN-MMS-0007-2008), made four
recommendations designed to assist the Minerals Management Service (MMS) in ensuring
proper royalty collection during the phase-out of the Royalty-In-Kind (RIK) program. After we
issued our report, MMS was reorganized into BOEMRE.

       The Director ofBOEMRE responded to our report on July 8, 2010, agreeing with all four
recommendations and planned actions, target dates, and responsible officials. Based on the
response, we considered recommendation 1 resolved and implemented and 2 through 4 resolved
and not implemented. On September 29, 2010, we referred recommendations 2 through 4 to the
Office of Financial Management (PFM), Office of Policy, Management and Budget to track their
implementation. ONRR was subsequently moved out ofBOEMRE and under the Assistant
Secretary, Policy, Management and Budget on October 1, 2010. ONRR acted on
recommendations 2 and 4, and both ONRR and BOEMRE acted on recommendation 3, with
BOEMRE taking 3a and ONRR taking 3b. On October 1, 2011, BOEMRE was split into the



                        Office of Audits, Inspections, and Evaluations I Lakewood, CO
Bureau of Ocean Energy Management (BOEM) and Bureau of Safety and Environmental
Enforcement (BSEE).

       PFM informed us that all three recommendations had been implemented in memoranda
dated March 23, 2011, June 27, 2011, and September 28, 2011.

Scope and Methodology

        The scope of this review was limited to determining whether ONRR and BOEMRE
implemented the four recommendations as reported to OIG and PFM. To accomplish our
objective, we reviewed the supporting documentation submitted to PFM by ONRR and
BOEMRE relating to each of the recommendations. We also reviewed additional supporting
documentation provided by ONRR when we started this review. We did not need to contact
BOEM or BSEE officials during this review because PFM and ONRR provided us with all the
supporting documentation we needed.

        We did not perform any site visits or conduct any detailed fieldwork to determine
whether the underlying deficiencies that were initially identified have actually been corrected. As
a result, this review was not conducted in accordance with the Government Auditing Standards
issued by the Comptroller General of the United States.

Results of Review

        Our review found that ONRR and BOEMRE implemented all four recommendations and
that the closure actions by PFM are valid.

       Recommendation 1: RIK should establish a tracking system for each property to ensure
       timely and proper reconciliation and resolution of imbalances.

       Action Taken: We considered this recommendation resolved and implemented on
       September 29, 2010, based on the July 8, 2010 response to the final report, which stated
       that BOEMRE agreed with our recommendation and developed and implemented a
       Microsoft Project tracking sheet that lists all imbalances by offshore facility measurement
       points (FMP) in the RIK program from April 2004 to the present. We also confirmed the
       full implementation of this recommendation by reviewing the final RIK Oil Cash-Out
       Tracking Sheet printed on June 25, 2012.

       Recommendation 2: RIK should appropriately document royalty calculations and ensure
       procedures are in place for a verification review of these calculations, especially for those
       properties with various royalty rates, royalty relief, and in-value leases.

       Action Taken: We considered this recommendation resolved and not implemented on
       September 29, 2010, based on the July 8, 2010 response to the final report, which stated
       that BOEMRE agreed with our recommendation and enhanced its procedures to
       appropriately document and verify royalty calculations. Analysts were required to




                                                 2
complete spreadsheets demonstrating the calculations of royalty volumes, and supervisors
would manually check samples of the calculations.

We considered this recommendation closed as of March 23, 2011, based on
documentation provided by ONRR, including written procedures for the analysts and a
template for the checklist required for every imbalance file. ONRR also provided the
guidance requiring supervisory review of oil imbalance files for RIK phase-out.

We confirmed the full implementation of this recommendation after reviewing the
documentation and ONRR’s “RIK Imbalance Internal Management Review Report,”
completed on February 4, 2011. This report concluded that Asset and Sales Accounting
(ASA) management has made a concerted effort to follow ASA policies and procedures
for properly reconciling and resolving oil and gas volume imbalances; that ASA is
reconciling volume imbalances according to the established policies and procedures; and
that the issued case folders have all of the required documentation, signatures, and
supervisory review.

Recommendation 3: MMS should establish a process to verify volume allocation
methods used by companies on offshore leases.

Action Taken: We considered this recommendation resolved and not implemented on
September 29, 2010, based on the July 8, 2010 response to the final report, which stated
that BOEMRE agreed with our recommendation and would conduct a risk-based analysis
to help determine the best method and tools available for verifying oil volume allocations
for facility measurement points (FMP) with mixed royalty rate leases. Once the analysis
was complete, BOEMRE would establish a process to verify volume allocation methods
used by companies for offshore leases.

ONRR and BOEMRE addressed this recommendation jointly and split it into 3a, to be
addressed by BOEMRE, and 3b, to be addressed by ONRR.

Recommendation 3a: PFM determined that BOEMRE met the intent of the
recommendation and considered recommendation 3a as implemented and closed on
September 28, 2011. BOEMRE reported that it and ONRR established a process to verify
volume allocation methods used by companies on offshore leases with mixed royalty
rates. ONRR conducts risk assessments and provides BOEMRE with an annual list of
high-risk FMPs for BOEMRE to conduct well and lease allocation reviews. We
considered this recommendation closed as of September 28, 2011, based on
documentation provided by BOEMRE.

Recommendation 3b: PFM determined that ONRR met the intent of the
recommendation and considered recommendation 3b as implemented and closed on June
27, 2011. PFM’s determination was based on the process ONRR developed with
BOEMRE to verify volume allocation methods and provide an annual list of high-risk
FMPs for BOEMRE to review. We considered this recommendation closed as of June 27,
2011, based on documentation provided by ONRR.



                                        3
       We confirmed the full implementation of this recommendation after reviewing all the
       documentation regarding this recommendation.

       Recommendation 4: RIK should update its “Royalty-In-Kind Operator Imbalance Phase
       Out Strategy & Procedures,” dated October 7, 2009, with additional process
       improvements, such as the threshold certification form, property checklist, and royalty
       calculation spreadsheet. This will ensure a comprehensive closeout strategy.

       Action Taken: We considered this recommendation resolved and not implemented on
       September 29, 2010, based on the July 8, 2010 response to the final report, which stated
       that BOEMRE was in the process of updating its oil imbalance procedures to address
       recent improvements and provisions added since October 2009.

       We considered this recommendation closed as of March 23, 2011, based on
       documentation provided by ONRR, including the “Revised Royalty-In-Kind Operator
       Imbalance Phase Out Strategy & Procedures,” updated August 5, 2010. ONRR also
       developed a checklist and certification forms for entitlements and write-offs.

       We confirmed the full implementation of this recommendation after reviewing the
       documentation and the February 4, 2011 “RIK Imbalance Internal Management Review
       Report.” As with recommendation 2, the “Management Report” showed that ASA
       management and staff have worked to improve their processes and procedures and ensure
       proper documentation.

Conclusion

       We informed ONRR officials of the results of this review at an exit conference on
July 25, 2012. The ONRR officials agreed with our results.


cc:    Director, Bureau of Ocean Energy Management
       Audit Liaison Officer, Bureau of Ocean Energy Management
       Director, Bureau of Safety and Environmental Enforcement
       Audit Liaison Officer, Bureau of Safety and Environmental Enforcement




                                               4
